OIG Inspection Report I-96-06
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTION REPORT
REVIEW OF THE DRUG ENFORCEMENT ADMINISTRATION
SELF-INSPECTION PROGRAM
March 1996
Report Number I-96-06
TABLE OF CONTENTS
Transmittal Memorandum
INTRODUCTION
OBJECTIVE, SCOPE, AND METHODOLOGY
BACKGROUND
Rationale for the Self-Inspection Program
Self-Inspections and Follow-Up Reviews
RESULTS OF THE INSPECTION
I. FIRST YEAR OF THE SELF-INSPECTION PROGRAM
DEA's Investment in the Program
Problems Identified by the Process
Field Management Views
II. BENEFITS OF SELF-INSPECTION
Self-Inspections Can Be Used To Resolve Long-Standing.
Problems
Self-Inspection Liaison Activities Can Improve DEA's
Working Relationships with Other Law Enforcement Agencies
Self-Inspection Proved to Be a Valuable Training Tool
III. DEA SHOULD ENHANCE SELF-INSPECTION REVIEWS OF LAW ENFORCEMENT
EFFECTIVENESS
IV. LOOKING TO THE FUTURE
Other Programs and Activities Need to Be Reviewed by the
Self-Inspection Process
Follow-up Teams Should Be Looking for and Sharing Best Practices
March 28, 1996
MEMORANDUM FOR THOMAS A. CONSTANTINE
ADMINISTRATOR
DRUG ENFORCEMENT ADMINISTRATION
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:             Review
of the Self-Inspection Program, Report Number I-96-06
Drug Enforcement Administration (DEA) Inspection Division officials asked us to conduct
a preliminary assessment of the DEA Self-Inspection Program, and I am pleased to provide
you with the results.
To assess the programs we observed, reviewed and analyzed the self-inspection process,
interviewed dozens of DEA headquarters and field division managers and supervisors,
conducted telephone surveys of all 19 Special-Agents-in-Charge (SACs), accompanied a
headquarters team in conducting one of its follow-up reviews, and reviewed all final
self-inspection reports available as of November 30, 1995.
We have concluded that self-inspections conducted by DEA's domestic field divisions
during 1995 successfully identified numerous instances of noncompliance, including some
that were significant and long-standing. The process successfully focused DEA field
supervisors and managers on the need to better ensure compliance with DEA rules and
regulations, and we believe that liaison activities included in the self-inspection
process were useful in improving DEA's relationships with state, local and other Federal
law enforcement agencies.
Although many field supervisors and managers reported that they were skeptical
of the program at its inception, support for the program has increased significantly since
that time. SACs we surveyed in November 1995 consistently rated self-inspections as an
improvement on DEA's previous inspection program. When asked to compare self-inspections
to the previous inspections conducted by headquarters inspectors, most SACs agreed that
self-inspections were more likely to identify significant problems and effective solutions
to those problems. All but one SAC agreed that self-inspections have resulted in candid
reporting of problems.
Field office managers and staff were for the most part very positive about the impact
of the Self-Inspection Program. Almost everyone we spoke with reported that the program
has improved awareness and understanding of DEA rules and regulations, especially among
first-line field supervisors.
One concern expressed by many people, both at headquarters and in the field, was that
the program has required a substantial commitment of resources. Most of these individuals
conceded that conducting self-inspections would be easier and less time-consuming in
subsequent years than in the first year, but nonetheless suggested that the length of the
review cycle for domestic field divisions be increased from 12 months to 18 or 24 months.
We estimate that DEA invested about 40 staff years in the field to conduct
self-inspections. The Office of Inspections estimates that it required about 18 staff
years of its own resources to run the program. We estimate that this included more than 5
staff years to conduct on-site follow-up reviews at DEA's 19 domestic field divisions.
We noted that self-inspection reports included an assessment of each field divisions'
enforcement effectiveness. These assessments were for the most part based upon statistical
analyses of division performance, and we understand DEA plans to conduct more
comprehensive assessments of enforcement effectiveness in 1996. We discussed enforcement
effectiveness with SACs and other DEA personnel and several suggested this part of the
self-inspection process should be strengthened. We agree. DEA managers and staff provided
us with numerous ideas for giving assessments of enforcement effectiveness greater focus
in 1996. We have included these ideas, and other suggestions, in the attached report.
We also noted that DEA plans in 1996 to begin holding SACs, managers, and supervisors
fully accountable for correcting deficiencies identified during self-inspections and
follow-up reviews. Compliance problems have been clearly identified during the first cycle
of self inspections. By the end of year two, DEA should be in a strong position to hold
managers and supervisors accountable for correcting deficiencies.
During the course of our inspection, we made several suggestions directly to
Inspections Division managers and supervisors. We suggested they make changes in
compliance checklists used for self-inspection and place greater emphasis on addressing
problems that may be the underlying cause of non-compliance (e.g., poor file maintenance,
problems of accountability for both drug and non-drug evidence, data integrity problems
with the DEA Case Status System).
We also suggested that Inspections Division staff make a more systematic effort to
identify and document "best practices" during follow-up reviews, and find ways
to disseminate information on best practices to managers and supervisors in the field.
In summary, we found DEA'S implementation of its Self-Inspection Program to be an
impressive initial effort. We hope the comments and suggestions for improvement contained
in the attached report will be useful in your efforts to improve the management of DEA law
enforcement operations.
We appreciate the cooperation extended to our Inspections Division staff during the
review. If you have any suggestions how we might improve our review process, or if we can
provide you with any additional information please let us know.
Attachment
INTRODUCTION
The Office of the Inspector General (OIG), Inspections Division, has completed a review
of the Drug Enforcement Administration's (DEA) self-inspection program. DEA managers
requested we conduct an independent assessment of this new program.
OBJECTIVE, SCOPE, AND METHODOLOGY
In response to DEA's request, we reviewed the results of DEA's self-inspection program
in its first year of implementation, and looked for ways to improve the process. Our
approach included:
· reviewing self-inspection program policies and procedures;
· interviewing a variety of headquarters and field managers who participated in the
program;
· visiting three DEA field divisions;
· conducting a telephone survey of DEA Special-Agents-in-Charge (SACs) who are
responsible for managing DEA's 19 field divisions;
· assessing the results of the self-inspections performed during 1995;
· observing and analyzing follow-up review activities;
· comparing the results of DEA's previous method of performing inspections with the
new process; and
· analyzing resources used to conduct self-inspections.
BACKGROUND
DEA's mission requires that its managers exercise continual oversight of field
operations and other programs to ensure that DEA personnel observe legal requirements and
follow sound management practices. For example, DEA must maintain strict chain-of-custody
procedures for use in judicial proceedings, and agents must maintain investigation case
files properly to effectively conduct criminal investigations.
Over time, DEA has developed policies and procedures designed to withstand legal
challenge. These policies and procedures also ensure proper handling of and accounting
for: seized cash and drugs, firearms, imprest funds, vehicles, technical equipment,
confidential informants, etc.
To ensure that policies and procedures are followed, DEA historically has conducted
compliance inspections of all programs and offices. DEA's policy was to conduct these
inspections on an 18- to 24-month cycle. These inspections focused on compliance with DEA
regulations and standard operating procedures.
DEA assigned agents from the field to the headquarters inspections staff, typically for
1 year or less, and this staff was responsible for inspecting all DEA field offices. The
inspections typically required 2 to 3 weeks on-site. What was then DEA's Planning and
Inspections Division issued findings and recommendations in a formal report to the
inspected office and to the DEA Administrator. DEA policy required that the inspected
field office implement the recommendations within an established time frame. The Planning,
and Inspections Division was responsible for following up on whether corrective actions
had been taken.
Rationale for the Self-Inspection Program
In January 1995, DEA published a report on its renewed efforts to reduce drug-related
violence in America. In this report, "Meeting the Challenge: Refocusing DEA's
Resources, Restoring America's Communities," DEA explained the origins of its new
self-inspection program.
The Administrator has repeatedly emphasized his expectations of absolute adherence to
all requirements of the law and the Standards of Conduct as well as to the numerous but
necessary rules, regulations, and policies that govern our behavior and activities. The
public and media correctly hold us all to a higher standard. Violations of integrity and
acts of misconduct must be quickly and effectively addressed.
To ensure the integrity of DEA operations, the Administrator implemented several
changes. As described in the January 1995 report, these changes included:
· Background investigations of Special Agent applicants are now conducted by DEA
Special Agents. Both the investigating agent and the SAC are required to certify the
applicant's suitability for hire at the conclusion of the investigation. Polygraph
examinations and other testing are used to eliminate applicants who have been untruthful
in their applications and interviews.
· The Office of Planning and Inspections has been reorganized to allow the Chief
Inspector to focus exclusively on inspections and integrity matters.
· Nationally known experts in the integrity field have been brought to DEA
headquarters and the DEA training academy at Quantico for discussions and presentations to
supervisory staff.
In addition, DEA implemented a new annual self-inspection program in 1995 to replace
the centralized, headquarters inspection program. The length of time between headquarters
inspections had increased substantially in recent years, and there was little incentive
for managers in the field to identify and correct deficiencies, unless those deficiencies
had a direct and obvious bearing on the performance of their operations. Infrequent
inspections by headquarters inspectors were not adequate to ensure compliance with DEA
rules and procedures.
The new self-inspection program relies on DEA managers and supervisors to perform
annual self-inspections and report on their findings and proposed solutions to problems.
DEA management is committed to keeping the new self-inspection program operating on an
annual cycle, and has stated that DEA will consider increasing the time between
self-inspections only when the incidence of non-compliance declines.
Self-Inspections and Follow-Up Reviews
For the first self-inspection, each DEA field division designated an Assistant Special
Agent in Charge (ASAC) as the point of contact. Each of these ASACs was given training on
performing self-inspections at a DEA conference in December 1994. In this first year, the
self-inspection process included three phases:
· The GS-14 personnel in each division inspected assigned areas outside their own
group, following the guidelines and checklists in the DEA Self-Inspection Manual developed
by the Office of Inspections. Personnel below the GS-14 level did not generally conduct
self-inspections. Field divisions performed their self-inspections during the period of
January through March 1995. Each division prepared an initial self-inspection report and
forwarded the report to the Office of Inspections. These initial self-inspection
reports described problems identified during self-inspections and included proposed
corrective actions.
· Office of Inspections staff reviewed each division's self-inspection report,
including proposed corrective actions, and developed suggestions for other areas to
examine and/or other corrective actions needed. Their analysis was sent back to the
division with a memorandum from the Chief Inspector, Inspection Division, to the SAC
emphasizing the importance of adopting the corrective actions developed during the
self-inspection process.
· Approximately 3 to 7 months after the divisions conducted their self-inspections,
Office of Inspections staff performed on-site follow-up compliance reviews at each
division and selected resident offices. The inspections staff completed follow-up reviews
for all domestic field divisions, as well as offices in Bolivia and the Far East during
calendar year 1995. During the follow-up review, inspectors used checklists to ensure
compliance with DEA standards and procedures, and checked for implementation of corrective
actions outlined in each division's initial self-inspection report. Inspectors met with
state, local and other Federal agency officials to assess the relationships between these
other agencies and DEA field divisions. Follow-up reviews also included an assessment of
enforcement effectiveness at each field division.
· The inspectors compiled their findings and recommendations, along with the results
of the enforcement effectiveness review, into a final self-inspection report. These
reports were sent directly to the DEA Administrator, and the Administrator sent them out
to each division under his signature. Copies of the reports were also sent to the Chief of
Operations who is responsible for the SACs annual performance appraisals.
DEA did not include headquarters offices in first year implementation of the
self-inspection process. In addition, DEA emphasized those field activities perceived as
having the highest potential for abuse, and did not include a few field division
activities in the self-inspection process (e.g., Technical Operations, Diversion Control,
and Demand Reduction).
RESULTS OF THE INSPECTION
I. FIRST YEAR OF THE SELF-INSPECTION PROGRAM
DEA's Investment in the Program
In the first year of the self-inspection process, all 19 domestic division offices,
foreign offices in the Far East, Bolivia, Mexico and Colombia, and 4 DEA drug laboratories
conducted self-inspections. The Office of Inspections conducted follow-up reviews of each
domestic field division, as well as DEA offices in the Far East and Bolivia. Follow-up
reviews of the remaining foreign offices were still pending at the time we completed our
field work.
Overall, DEA has invested about 18 staff years at headquarters, and approximately 40
staff years in the field, conducting self-inspections and follow-up reviews during 1995.
In addition, we estimate that DEA incurred travel expenses for the self-inspection process
of almost $200,000 for headquarters staff and more than $250,000 for field personnel.1
A comparison of the travel costs and personnel resources required to conduct
self-inspections and the previous headquarters inspection of the Boston and Atlanta
Division Offices suggests that the burden and cost of conducting inspections was shifted
dramatically from headquarters to the field in performing self-inspections. Our resource
and travel estimates for self-inspections, and for the previous headquarters inspection
completed for these two offices, are listed below.
Boston Field Division Self-Inspection
Resources
Date
Person Days
Travel Cost
Headquarters
9/11-15/95
30
$8,100
Division Office
1st Quarter 1995
214
$6,700
Totals
244
$14,800
Previous DEA Headquarters Inspection of the Boston Field Division
Resources
Date
Person Days
Travel Cost
Headquarters
10/31-11/12/93
416
$60,000
Totals
416
$60,000
Atlanta Self-Inspection
Resources
Date
Person Days
Travel Cost
Headquarters
9/6-15/95
80
$11,500
Division Office
lst Quarter 1995
365
$21,400
Totals
445
$32,900
Previous DEA Headquarters Inspection of the Atlanta Field Division
Resources
Date
Person Days
Travel Cost
Headquarters
8/5-16/91
360
$42,000
Totals
360
$42,000
Problems Identified by the Process
In its first year, the self-inspection program identified numerous deficiencies in
compliance with DEA rules and procedures.2
· Field division staffs conducting the initial self-inspection identified 176 problems
or deficiencies.
· The Office of Inspections staff identified 48 additional problems or deficiencies
based upon review of the divisions' initial self-inspection reports, and through an
analysis of other data independently collected by headquarters inspection teams. The
Office of Inspections requested the divisions take prompt action to remedy these problems
and deficiencies.
· Headquarters inspection teams conducting on-site follow-up compliance reviews
identified 91 additional problems or deficiencies including some that had been
self-reported by the field divisions but had not Yet been corrected.
Problems identified through the self-inspection process included both instances of
noncompliance with DEA rules and regulations, as well as more generalized weaknesses in
management controls.
Instances of non-compliance identified during the self-inspection process included
failures to:
·follow procedures for handling informants and/or payments to informants;
·request United States Attorney approval for the destruction of large, bulk marijuana
exhibits;
· make timely entries of case information into the Case Status System, which
diminished the usefulness of the system as a management tool;
· ensure that DEA agents and state and local law enforcement officers assigned to DEA
Task Force groups met DEA firearms qualification requirements;
· report all maintenance and repair costs incurred for Official Government Vehicles
(OGVs), and have appropriate certification in files for home-to-work use of OGVs;
· appoint a Board of Investigation to investigate a loss of $5,000 intended for the
purchase of evidence;
· recover three advances totaling $3,300 for small purchases that were still
outstanding after 2 to 3 months;
· correct numerous deficiencies in investigative file record keeping;
· maintain required documentation regarding numerous losses and thefts of government
property; and
· properly track open and closed obligations, perform required reconciliations, and
follow up on $210,000 in undelivered orders.
Control weaknesses identified included:
· significant lapses in controls over seized and recovered monies;
· lapses in controls over non-drug evidence, especially when exhibits were signed out
for use in court; and
· failure to correct known weaknesses in controls over drug evidence exhibits.
The self-inspection process also identified potential integrity problems. The
self-inspection process surfaced 12 potential integrity issues relating to accountability
for money, property or evidence. These issues were referred to DEA's Office of
Professional Responsibility for further investigation. Examples of issues referred
included: a missing OGV, improper payments made to a confidential source, imprest fund
shortages, and missing drug evidence.
Follow-up review teams also identified several instances of inadequate headquarters
support to field divisions. These problems had not been resolved through normal management
channels and likely would not have been identified under the previous inspection process
because headquarters support for field divisions was not typically reviewed by the
inspectors.
· Although Operations Division managers had known about the increasing workload in DEA
border offices resulting from Border Patrol drug seizures, they had not successfully
addressed the problem. As a result, DEA agents in some field offices were spending
excessive amounts of time on minor Border Patrol drug cases rather than working major drug
investigations. A new Memorandum of Understanding with the Border Patrol had been under
discussion for some time but no agreement had been made to date.
· The operational Support Division had not responded for several months to a request
for assistance to remedy serious deficiencies in one division's radio system.
· The headquarters Equal Employment Opportunity (EEO) staff had failed to respond to
requests from one division for EEO training that date back to 1992.
· The operations Division had not provided sufficient guidance to SACs on how each
division should establish Mobile Enforcement Team (MET) priorities and best use existing
resources to implement the NET concept.
Follow-up review teams also assessed whether problems identified by field divisions
during self-inspections had been resolved and corrected as of the time of their review. Of
the 176 problems identified during field division self-inspections, follow-up teams
confirmed that 1 1 6 (66 percent) had been corrected.
By comparison, the OIG report: "Office of Inspections in the Drug Enforcement
Administration," published in August 1992, established that DEA was not making the
needed changes to correct deficiencies identified by DEA inspectors. The OIG concluded in
1992 that only 56 percent of the needed corrections had been made.
Field Management Views
During our interviews, DEA SACs and other field personnel told us that there was
considerable initial skepticism about the self-inspection program among all levels of DEA
field management. After going through the self-inspection process, however, there appears
to be much greater support for the program. Field managers and supervisors we spoke with
were generally consistent in their assessment that, although time-consuming,
self-inspections were worthwhile and especially useful in reinforcing DEA procedures.
At the same time, many first and second line field supervisors we interviewed expressed
concern over the interruption the self-inspection process caused in their primary law
enforcement duties. These supervisors said that paperwork backed up and they were kept
away from their duties for 2 weeks or more. Many expected the process to go much quicker
next time, however, because of the experience gained during the first self-inspection.
We conducted a telephone survey of all 19 DEA SACs. Their responses to this survey
suggest fairly widespread agreement that the self-inspection process is an improvement
over the previous headquarters inspection program it replaced.
· A majority of SACs (12 out of 19, 63 percent) believed the self-inspection program
was more effective than the old inspection process in identifying significant problems.
· A majority of SACs (14 out of 19, 74 percent) believed the self-inspection program
was more likely to develop workable and effective solutions than the previous inspection
process.
· All but one of the SACs (18 out of 19, 94.7 percent) believed the self-inspection
process was likely to result in the candid reporting of problems.
· A majority of SACs (14 out of 19, 74 percent) believed the self-inspection program
constitutes a net improvement over the headquarters inspection program it replaced.
A summary of SAC responses to our telephone survey follows.
RESPONSES TO TELEPHONE SURVEY
ON THE SELF-INSPECTION PROCESS
We Asked the 19 SACs to Either Agree or Disagree With Each Statement
Agree
Disagree
No Opinion
% Agree
1. The self-inspection program is more effective in identifying
significant problems than the previous inspection program.
12
0
7
63%
2. The self-inspection program is more likely to develop workable and
effective solutions to problems than the previous inspection program.
14
0
5
74%
3. The self-inspection program should provide more self-inspection
process training for ASACs and Group Supervisors.
13
6
0
68%
4. Group supervisors used as inspectors are not fully competent to
inspect technical/administrative areas such as financial operations.
10
9
0
53%
5. Self-inspections should be conducted every year.
11
8
0
59%
6. Follow up reviews by the HQ DEA Inspections office should be
conducted after every self-inspection.
13
6
0
68%
7. Geographically close offices should have the option to conduct
inspections of each other than self-inspect.
8
9
2
43%
8a. The enforcement effectiveness evaluation is accurate.
18
1
0
95%
8b. The enforcement effectiveness evaluation is comprehensive.
14
5
0
74%
8c. The enforcement effectiveness evaluation is worthwhile.
18
1
0
95%
9. The self-inspection process is likely to result in the candid
reporting of problems.
18
0
1
95%
10. Overall, the self-inspection program represents an improvement
over the inspection program it replaced.
14
2
3
74%
II. BENEFITS OF SELF-INSPECTION
Self-Inspections Can Be Used To Resolve
Long-Standing Problems
One drawback of DEA's previous inspection process was the time interval between
inspections.3 Several years would often elapse between
inspections at each DEA field division, and in the interim problems identified during
these inspections went uncorrected. The self-inspection process requires field divisions
to regularly assess and report on compliance, and should prompt field division management
to take needed corrective actions.
We compared the results of self-inspections for three DEA divisions with the results
from the last three headquarters inspections, and observed that some problems seem to be
chronic and do not get corrected. We observed an example of a problem that has persisted
for many years during the follow-up review of one field division.
The example we observed was a long-standing problem with the way the division has
handled both drug and non-drug evidence. For many years, agents in the division have been
lax in accounting for both drug and non-drug exhibits signed "out to court."
During the follow-up review, DEA inspectors found well over 300 non-drug exhibits that had
been signed out to court for extended periods, some dating back as far as 20 years. A
recently completed OIG review identified over 200 drug exhibits that had been signed out
for over two years. The division's SAC and ASAC inherited the problem, and had not yet
been able to fully investigate all the unaccounted for exhibits - in part because some of
the exhibits were so old that the cases had long ago been closed and case files had been
archived or destroyed.
As of the time of the follow-up review, division management had investigated and
resolved a portion of the signed out exhibits, and was in the process of putting a new
system in place to ensure that exhibits are disposed of promptly when agents close cases.
Nonetheless, the follow-up review team cited field division managers for not fully
resolving the problem, and provided them with a list of the more than 300 exhibits still
unaccounted for. The self-inspection process in 1996 will revisit this issue and should
provide division management with some incentive to finally resolve the problem.
Senior DEA officials believe that detecting and addressing relatively minor problems at
an early stage can prevent these problems from escalating into more serious ones. The
self-inspection process requires each field division to perform an annual self-inspection,
and each division is reviewed by a headquarters follow-up review team later in the same
year. This routine scrutiny should help ensure greater compliance with DEA rules and
procedures and ensure that significant procedural problems are promptly identified. DEA
officials responsible for the self-inspection program told us that there will be sanctions
against field division management at the end of the 1996 self-inspection cycle if they
have not yet resolved previously identified problems.
We encourage DEA management to follow through and hold field division managers
accountable for taking reasonable steps to resolve problems identified in their offices.
Self-Inspection Liaison Activities Can Improve
DEA's Working Relationships with Other Law Enforcement Agencies
As part of the self-inspection process, DEA included specific steps to assess and
improve the relationship of field divisions with their counterparts in other Federal,
state, and local law enforcement agencies. Field division and follow-up review teams both
conducted numerous interviews with officials from other law enforcement agencies as part
of the self-inspection process. In addition, the Office of Inspections mailed out 2,700
questionnaires to Federal, state and local law enforcement officials throughout the
country. DEA officials reported that most questionnaires were returned and that with some
exceptions the responses were favorable. These same officials told us that DEA field
and/or headquarters personnel have followed up on unfavorable responses.
While we agree that there is a great deal of value in performing these agency contacts
as part of the self-inspection process, we believe that additional benefit could be
derived if DEA developed a more structured questionnaire for use in the future. The
questionnaire DEA used in 1995 included nine open-ended questions that requested
responding officials to assess their relationship with DEA officials and discuss problem
areas, if any. Although useful for obtaining information from respondents, open-ended
questions can not be easily tabulated and analyzed.
At least four of the questions that DEA used in its questionnaire could be
re-structured as multiple choice questions and respondents would then choose from the list
of responses. Questions structured in this way could be used to measure how DEA is doing
in liaison and customer service and these measures could be tracked over a period of
several years. DEA could then perform summary and trend analysis, and establish benchmarks
for customer service. DEA officials told us that while they expect to repeat this or a
similar exercise in the future, they do not plan to use liaison questionnaires every year.
Self-Inspection Proved to Be a Valuable
Training Tool
The self-inspection process has served to give first line supervisors a better
understanding of DEA rules and procedures, and has facilitated some cross-training and
sharing of useful practices. Senior DEA managers noted that when agents become first line
supervisors they often get little training on DEA rules and procedures, and these
supervisors may not fully appreciate the importance of specific requirements and
paperwork. The self-inspection process requires supervisors in the field to focus on
compliance with the full range of rules and procedures. Most of the DEA managers we spoke
with offered that self-inspections had provided an unexpected but valuable training
opportunity, especially for new supervisors. Managers and supervisors in the field told us
that the focus on compliance required in performing self-inspections was a good learning
experience, and many said they appreciated the opportunity to observe how other
supervisors managed their operations.
III. DEA SHOULD ENHANCE SELF-INSPECTION REVIEWS OF LAW
ENFORCEMENT EFFECTIVENESS
As part of the self-inspection process, DEA included a review of the effectiveness of
each field divisions enforcement activities. DEA officials have indicated they plan to
give "greater emphasis" to these reviews of enforcement effectiveness in 1996.
The results of assessments conducted during the 1995 self-inspection process were
incorporated as a separate narrative within the final self-inspection report for each
division.
Effectiveness assessments we reviewed for 13 field divisions described the divisions
size, staffing, demographic factors, employee morale, investigative priorities,
statistical accomplishments (including arrests, seizures, etc.), and major law enforcement
initiatives. while this information is useful, enforcement effectiveness assessments
performed during 1995 did not consider whether each field division's overall approach,
strategy and allocation of resources was optimal or appropriate, and did not directly
assess the overall impact or outcomes of DEA operations.
Although in response to our survey most SACs agreed that the enforcement effectiveness
reviews were accurate, comprehensive, and worthwhile, several DEA managers and supervisors
suggested ways these reviews could be improved. Specifically, they suggested future
enforcement effectiveness assessments include a review of each field division's approach
to enforcement, as well as the overall impact of the division's law enforcement
activities. Questions they recommended DEA include in future assessments included:
· Are the division's enforcement priorities appropriate?
· What impediments exist in achieving the divisions enforcement priorities?
· Do the divisions have adequate resources? If not, what's needed, and what's getting
short-changed?
· What changes in strategies and approaches are needed?
· Should resources be deployed differently?
· What is the real impact of the division's drug enforcement activities on drug trends
and traffic, and on local communities?
These kinds of questions could be used as the Basis for dialogue between headquarters
and the field about national and local strategies and priorities, could include input from
the community and local law enforcement agencies, and would also provide a more complete
assessment of DEA's effectiveness.
Another benefit of this approach would be that the results of enforcement effectiveness
reviews could be used to meet the requirements of the Government Performance and Results
Act. In its most recent budget submission, the 1997 Spring Planning Estimates, DEA
reported outcomes such as the number of arrests, prosecutions and convictions; assets
seized and forfeited; and quantities of drug removals. Enforcement effectiveness
assessments that included outcome measures such as changes in drug trends and traffic, the
street prices and purities of drugs, and the incidence of violent drug crimes in local
communities, would provide more meaningful results than DEA currently uses in its budget
submissions.
We also agree with those who suggested that enforcement effectiveness reviews need to
look more closely at some of the more sensitive enforcement issues, such as:
· How well is the division handling the recruitment, management, and utilization of
informants?
· What is the division getting for the money paid to informants?
· What post-incident reviews are made?
· How are decisions being made on the street?
We suggest DEA consider conducting enforcement effectiveness reviews in much the same
way as the rest of the self-inspection process is conducted. SACs would prepare a
self-assessment of their operational effectiveness during the self-inspection, and
appropriate headquarters personnel would follow up on the self-assessment. This approach
could improve coordination between headquarters and the field, and provide valuable
information to senior DEA officials who are responsible for the management of DEA law
enforcement programs.
IV. LOOKING TO THE FUTURE
As mentioned previously in this report, DEA embarked upon its present course of annual
self-inspections in part because the length of time between headquarters inspections of
field divisions had been increasing. While we agree with DEA that annual inspections
should increase compliance with DEA rules and procedures, we have reservations about
long-term use of the self-inspection process on an annual basis. First, as noted
previously, the self-inspection program has consumed considerable resources and many of
these resources have been from field operations. Second, over time, if in fact compliance
with rules and procedures increases, the need for annual inspections should diminish and
it may be prudent to lengthen the review cycle.
We also noted a growing concern among field personnel that merits consideration. This
concern pertains to the numerous, labor-intensive collateral duties assigned to field
agents that in the past were handled by others. Field agents are currently tasked to
perform interviews and background investigations of DEA Special Agent applicants, conduct
investigations for the Office of Professional Responsibility, and complete other special
projects in addition to self-inspections.
To varying degrees, field personnel voiced the concern that collateral duties are
beginning to take too much time away from their primary job of drug law enforcement.
Although we have not examined this matter in depth, we believe that DEA may want to assess
the effect that collateral duties are having on work production and, if necessary,
determine if alternatives exist.
Other Programs and Activities Need to Be Reviewed by
the Self-Inspection Process
DEA limited the scope of self-inspections during the first year. Based on our
interviews with DEA's Office of Inspections, we understand that for the next cycle DEA
plans to add two additional field programs to the self-inspection process: the Diversion
Control Program and the Technical Operations Program. Both of these programs are important
components of field operations. In addition, DEA plans to include six headquarters offices
in the 1996 self-inspection process.4 We concur with DEA's plans
to add these programs, and suggest DEA continue adding headquarters and field division
programs in subsequent years.
Follow-up Teams Should Be Looking for and Sharing Best
Practices
DEA follow-up review teams periodically observe "best practices" and
innovative methods and approaches that have been developed by individual field divisions.
For example, we observed an automated system developed by the San Diego Division
informant program coordinator that provides easy access to informant information.
Informant information is typically accessed manually through a labor intensive search of
the informant files. The follow up review team inspector, previously a supervisory
agent at another field division, was very impressed when he saw the system in operation.
Although this system had been used by the San Diego Division for some time, its existence
and usefulness had not been shared with the other field divisions.
Currently, DEA does not have an efficient way of sharing best practices. We believe DEA
should consider asking follow-up review teams to look for and document best practices as
they conduct follow-up reviews during 1996. These teams are in a good position to identify
innovative methods and approaches which may be useful in other field divisions. Best
practices identified could then be shared with field managers during periodic meetings,
and in written or electronic form.
1 These estimates are projections based upon data available
in DEA Office of Inspections logs and travel files, and on information obtained from
managers and supervisors at 2 of DEA's 19 field divisions. These estimates do not
include resources for conducting self-inspections at DEA's foreign offices. Travel
estimates for inspections conducted prior to 1995 have not been adjusted for inflation.
2 These totals include results from the I3 final
self-inspection reports that DEA had completed at the time we finished our field work.
3 We analyzed the inspections cycle since the early 1980s.
Overall, the length of time between inspections appears to have gradually increased since
that time. In the early and mid-1980s, DEA inspected field divisions on average once every
2 years. By the late 1980s and early 1990s, the average time between inspections had
lengthened to almost 4 years. The length of time between inspections during the most
recent round of headquarters inspections ranged from almost 2 years (August 1987 to June
1989 in the Chicago Division) to over 6 years (April 1987 to August 1993 in the Detroit
Division).
4 Headquarters offices performing self-inspections in 1996
will include: the Intelligence Division, the Office of Science and Technology, the Office
of Diversion Control, the Office of Personnel, the Office of Training, and the DEA
Aviation Program.
#####